<html>
<title> - U.S. POLICY TOWARD ZIMBABWE</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]






                      U.S. POLICY TOWARD ZIMBABWE

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                            AND HUMAN RIGHTS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 2, 2011

                               __________

                           Serial No. 112-109

                               __________

        Printed for the use of the Committee on Foreign Affairs



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>





 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE
71-036PDF                 WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey
EDWARD R. ROYCE, California          BRAD SHERMAN, California
STEVE CHABOT, Ohio                   ELIOT L. ENGEL, New York
RON PAUL, Texas                      GREGORY W. MEEKS, New York
MIKE PENCE, Indiana                  RUSS CARNAHAN, Missouri
JOE WILSON, South Carolina           ALBIO SIRES, New Jersey
CONNIE MACK, Florida                 GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
MICHAEL T. McCAUL, Texas             DENNIS CARDOZA, California
TED POE, Texas                       BEN CHANDLER, Kentucky
GUS M. BILIRAKIS, Florida            BRIAN HIGGINS, New York
JEAN SCHMIDT, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
BILL JOHNSON, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
DAVID RIVERA, Florida                FREDERICA WILSON, Florida
MIKE KELLY, Pennsylvania             KAREN BASS, California
TIM GRIFFIN, Arkansas                WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
ROBERT TURNER, New York
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director
                                 ------                                

        Subcommittee on Africa, Global Health, and Human Rights

               CHRISTOPHER H. SMITH, New Jersey, Chairman
JEFF FORTENBERRY, Nebraska           DONALD M. PAYNE, New Jersey
TOM MARINO, Pennsylvania             KAREN BASS, California
ANN MARIE BUERKLE, New York          RUSS CARNAHAN, Missouri
ROBERT TURNER, New York












                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Johnnie Carson, Assistant Secretary of State, 
  Bureau of African Affairs, U.S. Department of State............     6
Ms. Sharon Cromer, Senior Deputy Assistant Administrator, Bureau 
  for Africa, U.S. Agency for International Development..........    15
Mr. Mark Schneider, senior vice president, International Crisis 
  Group..........................................................    31
Mr. Paul Fagan, regional director for Africa, International 
  Republican Institute...........................................    41
Mr. Dewa Mavhinga, regional coordinator, Crisis in Zimbabwe 
  Coalition......................................................    49

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Johnnie Carson: Prepared statement.................     9
Ms. Sharon Cromer: Prepared statement............................    18
Mr. Mark Schneider: Prepared statement...........................    34
Mr. Paul Fagan: Prepared statement...............................    43
Mr. Dewa Mavhinga: Prepared statement............................    52

                                APPENDIX

Hearing notice...................................................    64
Hearing minutes..................................................    65
The Honorable Karen Bass, a Representative in Congress from the 
  State of California: Prepared statement........................    66
Questions submitted for the record by the Honorable Russ 
  Carnahan, a Representative in Congress from the State of 
  Missouri.......................................................    67
The Honorable Donald M. Payne, a Representative in Congress from 
  the State of New Jersey: Material submitted for the record.....    68

 
                      U.S. POLICY TOWARD ZIMBABWE

                              ----------                              


                      WEDNESDAY, NOVEMBER 2, 2011

              House of Representatives,    
         Subcommittee on Africa, Global Health,    
                                   and Human Rights
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 3 o'clock 
p.m., in room 2200, Rayburn House Office Building, Hon. 
Christopher H. Smith (chairman of the subcommittee) presiding.
    Mr. Smith. We will be joined in a moment by Ranking Member 
Payne, but I thought I might just start.
    I actually have to leave for about \1/2\ hour. The 
Immigration Subcommittee of Judiciary is holding a hearing on 
one of my bills, H.R. 2121, the China Democracy Promotion Act, 
and I am the witness. So, I will be where you are in 25 
minutes.
    So, I think we ought to start, and when Don comes, we will 
just yield to him.
    Good afternoon.
    Our hearing today will examine the current U.S. Government 
policy toward the Republic of Zimbabwe and consider how our 
policy toward this southern African nation may develop in the 
years ahead. Zimbabwe is considering a new constitution that 
will lead to elections in 2012 that had been postponed from 
this year.
    There has been mutual hostility between the United States 
Government and Zimbabwe Government of Robert Mugabe since the 
country became independent in 1980. Mugabe and his supporters 
blame America for not supporting its liberation struggle, while 
the United States has criticized Mugabe's government 
consistently for human rights abuses, especially against its 
political opponents.
    With U.S. Ambassador to Zimbabwe Charles Ray encouraging 
U.S. businesses to invest in Zimbabwe last month, it would seem 
that U.S. policy is in the midst of a transformation.
    Following independence from Great Britain in 1980, Prime 
Minister Robert Mugabe's policy of political reconciliation was 
generally successful during the next 2 years, as the former 
political and military competitors within the ruling Zimbabwe 
African National Union Patriotic Front and rival Patriotic 
Front Zimbabwe African People's Union began to work together.
    Splits, however, soon developed, as PF-ZAPU leader Joshua 
Nkomo was removed from government. When PF-ZAPU was accused of 
initiating a rebellion due to the removal of Nkomo from the 
Cabinet, government military forces began a pacification 
campaign, primarily in his base, which resulted in as many as 
20,000 civilian deaths.
    In part, through its control of the media, the huge 
parastatal sector of the economy and the security forces, the 
Mugabe government managed to keep organized political 
opposition to a minimum through most of the 1990s. Beginning in 
1999, however, Zimbabwe experienced a period of considerable 
political and economic upheaval. Opposition to President Mugabe 
and the ZANU-PF government had grown, in part, due to the 
worsening economic governance issues.
    At one point, one U.S. dollar was worth more than 2.6 
billion Zimbabwe dollars. Following the seizure of White-owned 
commercial farms beginning in the 1990s, food output capacity 
fell some 45 percent, manufacturing output dropped 29 percent, 
and unemployment rose to 80 percent.
    The opposition was led by the Movement for Democratic 
Change, or the MDC, which was established in September 1999. 
The MDC led the campaign to handily defeat a referendum that 
would have permitted President Mugabe to seek two additional 
terms in office.
    Parliamentary elections held in June 2000 were marred by 
localized violence and claims of electoral irregularities and 
government intimidation of opposition supporters. Still, the 
MDC succeeded in capturing 57 of the 120 seats in the National 
Assembly.
    The last four national elections--the Presidential election 
in 2002, parliamentary elections in 2005, harmonized 
Presidential and parliamentary elections in March 2008, and the 
Presidential runoff in June 2008--were judged to be not free 
and fair by observers. In the March 2008 elections, two 
factions of the opposition MDC, known as MDC-T to denote Morgan 
Tsvangirai's faction and MDC-M for the group led by Arthur 
Mutambara, gained a combined parliamentary majority. Mugabe was 
declared the winner of the June 2008 runoff election after 
opposing candidate Tsvangirai withdrew due to ZANU-PF-directed 
violence that made a free and fair election impossible.
    Negotiations subsequently took place, and in September 2008 
the three parties signed the Global Political Agreement, or 
GPA, a power-sharing agreement under which Mugabe would retain 
the presidency, Tsvangirai would become Prime Minister. In 
February 2008, Tsvangirai was sworn in as Prime Minister and 
new Cabinet ministers and deputy ministers from the two MDC 
factions and the ruling party were also sworn in.
    There is serious contention within the ruling party for the 
right to succeed President Mugabe once he leaves office and 
added division within the opposition. Politics in Zimbabwe is 
in flux, to say the least.
    It is in this environment that the United States faces the 
extraordinary challenge of examining our current policy and 
determining how best it might be adjusted. I look forward to 
hearing from our very distinguished panel of witnesses today on 
how U.S. policy toward Zimbabwe may change to help that nation 
reach the desired goals of democracy and good governance.
    I would like to yield to my good friend and colleague, Mr. 
Payne, for any opening comments.
    Mr. Payne. Thank you very much, Mr. Chairman, for agreeing 
to hold this very important hearing on the policy toward 
Zimbabwe. This subcommittee has held a number of hearings on 
Zimbabwe over the years, and we must continue to focus 
strategically on this very important country.
    I also want to thank our distinguished witnesses for 
joining us today, Ambassador Carson and Senior Deputy Assistant 
Administrator Cromer, who both have been working on Africa 
issues for decades. Mr. Carson has been an Ambassador to 
Zimbabwe, actually, and has served with distinction, and Ms. 
Cromer's record is outstanding, as we have had her testify 
before this committee before. I certainly look forward to your 
testimonies.
    I want to also thank International Crisis Group, IRI, and 
the Crisis in Zimbabwe Coalition, as well as Open Society 
Foundations and Freedom House, for all of their hard work on 
this issue.
    In previous hearings, I have discussed Zimbabwe's rich and 
complex history. We know of the struggle for independence with 
Robert Mugabe and Josh Nkomo leading ZANU and ZAPU during the 
years of revolution, where Ian Smith and a quarter of a million 
Rhodesians held the entire nation of Zimbabwe, over 7 million 
Blacks, in a situation, as we all know, similar to South 
Africa, and the persons who struggled and fought for 
independence, even Mr. Mugabe and the late Josh Nkomo, should 
deserve a place in history.
    But it is that history, especially its relatively-recent 
independence and effort to overcome hundreds of years of 
colonialism and the pillaging of its rich natural resources by 
the West, that makes the current political crisis so difficult 
to witness today. Also, the outstanding education system that 
was put in place by the new Government of Zimbabwe, where even 
today throughout the continent Zimbabwean citizens tend to the 
highest-motivated in the educational area.
    After independence in 1980, Zimbabwe was prosperous and 
economic opportunities were abundant. But after years of poor 
economic policies, mismanagement, and corruption, political and 
economic upheaval began to take place in the early 2000s.
    Once a hub for young African visionaries, Zimbabwe lost 
millions of young adults to the crisis. Many have left the 
country for educational and economic opportunities. It is 
estimated 25 percent of Zimbabwe's population lives now outside 
of the country. Those who remain behind are clamoring for 
change.
    Yet, Zimbabwe still has a robust and engaged civil society. 
They are active in groups like WAHSA and Zimbabwe Lawyers for 
Human Rights. Many of them face violence, intimidation, 
detention, and torture. Yet, they continue to stand up for 
democracy, for reform, and for civil and human rights. They are 
committed to holding the government of national unity 
accountable. Some of them are also working to hold SADC 
accountable.
    I am pleased to welcome Mr. Dewa Mavhinga of Crisis in 
Zimbabwe Coalition to represent the views of the Zimbabwean 
civil society to our panel today.
    In this time of civilian-led uprisings across Africa and 
the Arab world, which has led to the demise of such formidable 
strong men as Mubarak and Ghadafi, it is difficult to digest 
that just 3 years ago a compromise approach to regime change in 
Africa was deemed acceptable by some. Of course, the 2008 
Global Political Agreement is far from perfect, but many 
believed that it was the most viable option for democratic 
change at the time.
    However, we saw with the Comprehensive Peace Agreement in 
Sudan, and we still see it, the signing of a political or a 
peace agreement does not automatically bring dramatic change 
and security, as we can see in Abyei and Southern Kordofan and 
other areas of Sudan. Rather, it is a starting point from which 
to build. The proof of the pudding is in the eating, as they 
say.
    Unfortunately, President Mugabe's ZANU-PF and the aligned 
security sector leaders have used brutal force to obstruct the 
reform process and attempted to divert attention away from the 
GPA by calling for hasty elections in March of next year. 
Domestic, regional, and international stakeholders have all 
stressed that elections should not occur until the Southern 
African Development Community, SADC, can facilitate the 
necessary framework for free and fair elections. Rushing the 
process and failing to implement necessary reforms prior to the 
elections could result in increased violence and 
destabilization that would threaten the entire area.
    Nevertheless, Mugabe continues to campaign, claiming only 
God can remove him from the presidency. And his supporters in 
the security sector continue to use harassment and intimidation 
tactics to suppress the opposition.
    I was disturbed to learn that just yesterday police 
officers aligned with the ZANU-PF sealed off the MDC campaign 
headquarters and used tear gas on MDC supporters and 
bystanders.
    The guarantors of the political agreement, the Africa Union 
and the Southern African Development Community, SADC, have 
begun to tire of Mugabe's obstructionist tactics. Earlier this 
year, South Africa's President Jacob Zuma and SADC made it 
clear to Mugabe that ZANU-PF must adhere to the provisions of 
the GPA, end violence against MDC supporters, contemplate 
significant changes to the country's governmental operation 
procedures, or else forfeit regional legitimacy.
    It is against this backdrop of intimidation and violence 
that we now consider U.S. policy toward Zimbabwe. Many 
observers believe that the new determination by South Africa 
and SADC to resolve the crisis presents the United States with 
a political opening to reinvigorate our engagement with SADC in 
order to help ensure orderly democratic transition in Zimbabwe.
    I agree that the United States and international community 
must do whatever we can to support SADC's mediation efforts 
while also engaging reform-minded elements within Zimbabwe's 
unity government. And, of course, we should also continue to 
engage and support Zimbabwe's civil society leaders in their 
effort to press for reform.
    Beginning in 2003, under President Bush and continuing 
under President Obama, the United States has implemented 
targeted sanctions against leaders of the ZANU-PF party for 
their violations of the rights of the Zimbabwean people. In 
addition to sanctions, the U.S. has placed restrictions on the 
aid that can be granted to Zimbabwe. Due to defaults in its 
debt service to the U.S., the unity government is ineligible to 
receive direct assistance.
    While I certainly agree that we should mount significant 
pressure on any government officials who suppress the 
democratic will of the people, I want to ensure that our 
efforts to punish unjust leaders do not inadvertently harm 
innocent civilians. I am pleased that the State Department 
continues to review and revise the sanctions list to ensure 
that entities that do not belong on the list are removed.
    What's more, in the case of Zimbabwe, we must be doing 
everything in our power to support reform-minded leaders in the 
unity government, such as MDC's Minister of Finance, Tendai 
Biti, who has implemented innovative and impactful reforms 
under extreme, difficult circumstances.
    That is why in the previous Congress I introduced H.R. 
5971, the Zimbabwe Renewal Act of 2010. This act would 
authorize debt forgiveness with Zimbabwe by U.S. Government 
agencies. I have not yet reintroduced a bill for this Congress 
because I want to take the testimony we hear today into careful 
consideration before revising the legislation.
    I am particularly interested to hear from our witnesses on 
the assessment of the progress that Prime Minister Morgan 
Tsvangirai and the MDC formations have made in implementing 
critical reforms as well as recommendations on how the U.S. can 
best support those reforms and meaningful democratic transition 
in Zimbabwe.
    Thank you again, Chairman Smith, for agreeing to hold this 
important hearing. I look forward to the witnesses' testimony.
    Mr. Smith. Thank you very much, Mr. Payne.
    Without objection, the full bios of our distinguished 
witnesses will be made a part of the record.
    But, in short form, Ambassador Johnnie Carson currently 
serves as Assistant Secretary of State in the Bureau of African 
Affairs, a position he has held since May 2009.
    Ambassador Carson has a long and distinguished career in 
public service, including 37 years in the Foreign Service, 
including serving as our Ambassador to Kenya, Uganda, and as 
Mr. Payne reminded us, to Zimbabwe itself. Ambassador Carson 
has also served as the staff director of the House Africa 
Subcommittee and as Peace Corps volunteer in Tanzania. 
Ambassador Carson is also the recipient of numerous awards for 
his service from the U.S. Department of State.
    We will then hear from Ms. Sharon Cromer, who is currently 
Senior Deputy Assistant Administrator in the Africa Bureau of 
USAID, a position she has held since May 2010. Ms. Cromer is a 
Senior USAID Foreign Service Officer with more than 20 years of 
experience in the international humanitarian and development 
assistance area.
    Upon her return to Washington in 2009, Ms. Cromer served as 
Assistant Administrator for the Bureau of Democracy, Conflict, 
and Humanitarian Assistance on a temporary basis before 
assuming the position as Deputy Administrator in the Bureau of 
Management.
    Ambassador Carson, if you could begin?

STATEMENT OF THE HONORABLE JOHNNIE CARSON, ASSISTANT SECRETARY 
 OF STATE, BUREAU OF AFRICAN AFFAIRS, U.S. DEPARTMENT OF STATE

    Ambassador Carson. Thank you very much. Chairman Smith and 
Ranking Member Payne, thank you for the opportunity to testify 
before you concerning the situation in Zimbabwe and about U.S./
Zimbabwean relations.
    Zimbabwe is a country of enormous economic, agricultural, 
and mineral potential. Unfortunately, a history of fiscal 
mismanagement for governance and a culture of political 
violence have limited that potential for nearly 15 years. While 
some visible improvements have been made, serious challenges 
remain.
    After a deeply flawed and violent election in 2008, 
Zimbabwe's former opposition parties are now part of a 
transitional coalitional government that has lasted nearly 3 
years. This coalition government was established under the 
stewardship of the Southern African Development Community as a 
key element in the Global Political Agreement which was 
negotiated between the two opposing parties to end political 
violence and move past the contested elections.
    Although significant challenges remain on the political 
front, there has been some progress. A tripartisan 
parliamentary committee has sought input for a new draft 
constitution from millions of Zimbabweans.
    Zimbabwe's economy, which was dollarized in 2009, has made 
a remarkable recovery. The International Monetary Fund 
estimated that Zimbabwe's gross domestic product grew at 
approximately 9 percent in 2010.
    Humanitarian need has decreased significantly since 2009, 
when 7 million people received humanitarian aid. In January 
2012, the number of people needing humanitarian assistance is 
projected to be just 1 million. Schools and health clinics 
previously closed due to a lack of staff and supplies have been 
reopened and are providing vital social services to the 
Zimbabwean people.
    At the same time, substantial progress has been impeded by 
censorship, weak rule of law, and the continued political 
manipulation of state institutions. Politically motivated 
harassment, intimidation, and violence continue, and state 
institutions are beholden to partisan agendas.
    The United States has always supported the aspirations of 
the people of Zimbabwe to create a country that would truly 
empower its citizens. In the 1960s and 1970s, we supported 
United Nations' efforts to pressure Rhodesian authorities to 
accept majority rule. The United States was the first country 
to extend diplomatic relations to the newly-independent 
Zimbabwe in April 1980. We have also voiced our concern when 
the liberation era leadership has taken actions that have 
threatened Zimbabwe's stability, prosperity, and development as 
a modern, democratic state.
    The United States sanctions program is the most visible 
manifestation of our concern. Today our sanctions target 121 
individuals and 69 entities, pursuant to Executive orders 
issued to focus on those individuals and those institutions 
undermining democracy in Zimbabwe. These sanctions began in 
March 2003.
    Much has changed in Zimbabwe since then, and our sanctions 
regime has reflected those changes. Over the past year, the 
Department of Treasury's Office of Foreign Assets Control has 
modified the sanctions list, adding or deleting names on the 
list to reflect some of the political changes occurring in 
Zimbabwe itself. The administration will continue to ensure the 
targeted sanctions program remains meaningful and accurate and 
relevant.
    At the same time, the United States is working to help to 
develop a strong, democratic, market-oriented Zimbabwe and to 
respond to the country's humanitarian needs. We have provided 
nearly $1 billion in assistance to Zimbabwe from Fiscal Year 
2006 through Fiscal Year 2011.
    I will defer to my USAID colleague, Senior Deputy Assistant 
Administrator Sharon Cromer, to talk more in-depth about USAID 
programs.
    The next 2 years will be a test for Zimbabwe, and the world 
will be watching very carefully to see if its political leaders 
stick to the commitments that they made to hold free and fair 
elections according to a roadmap negotiated with the assistance 
of the Southern African Development Community.
    Zimbabwe's future will not depend on the actions of any one 
individual or even one political party. It will depend on the 
collective decisions Zimbabwe's people make to replace a legacy 
of political violence and one-party rule with a culture of 
tolerance, reconciliation, and the depoliticalization of state 
institutions.
    We are contributing to empowering Zimbabweans to build the 
markets and the institutions necessary to determine their own 
future. The United States values partnerships with nations 
whose leaders demonstrate a commitment to the rule of law and 
the free flow of information. These features form the 
foundation of stable, growth-oriented democracies all over the 
world and will be a key factor governing our relationship with 
the Government of Zimbabwe in the years to come.
    If Zimbabwe's political parties implement the commitments 
that they, themselves, have made in the Global Political 
Agreement and the electoral roadmap, there will be clear 
imperative for the United States to reconsider our current 
sanctions policy.
    Specifically, this would mean the holding of free, fair, 
and internationally monitored elections. It will also require 
state institutions to be delinked from ZANU-PF. The Department 
of State will continue to press for the protection of human 
rights and accountability for those who abuse them, while 
acknowledging progress where and when it is made.
    It would be a mistake if I did not mention Zimbabwe's 
importance to the Southern African region. Zimbabwe shares 
borders with South Africa, Botswana, Zambia, and Mozambique. It 
is a critical transportation hub, a rich resource of talent, 
and a country with great economic potential and promise.
    Unfortunately, as we saw in 2008, the unstable political 
situation in Zimbabwe affects all the countries around it. 
Partisan influence over elements of the security sector and the 
use of these forces for violent actions and intimidation 
against political opponents has led to a darkening of the 
security sector's reputation, both at home and abroad. 
Zimbabwe's neighbors are still feeling the effects of the 
refugee flows and the economic collapse that occurred in 
Zimbabwe earlier.
    It is important to note the areas of concern and also those 
of stalemate, as we often do, but also to recognize progress 
and change when it occurs in Zimbabwe. Zimbabwe is a young 
nation with a long colonial legacy to overcome. Social, 
political, and economic advances do not happen quickly, nor 
will they necessarily follow an American or Western model.
    Implementation of the Global Political Agreement has been 
problematic from the very beginning, but the Southern African 
Development Community takes its mediating role seriously. And I 
am confident that they will not allow elections to go forward 
if it appears that the prevailing conditions will lead to a 
repeat of the 2008 crisis.
    Mr. Chairman and Ranking Member Payne, I want to thank you 
for this opportunity to appear before you today. I will be 
happy to answer any questions that you may have. Thank you very 
much.
    [The prepared statement of Mr. Carson follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    
                              ----------                              

    Mr. Smith. Mr. Ambassador, thank you so much for your 
testimony.
    Ms. Cromer?

    STATEMENT OF MS. SHARON CROMER, SENIOR DEPUTY ASSISTANT 
ADMINISTRATOR, BUREAU FOR AFRICA, U.S. AGENCY FOR INTERNATIONAL 
                          DEVELOPMENT

    Ms. Cromer. Thank you. Thank you, Chairman Smith, Ranking 
Member Payne, and members of the subcommittee. I would like to 
thank you for inviting me to speak today.
    I appreciate your continued interest in how U.S. policies 
and assistance programs can bring about positive change in 
Zimbabwe.
    I would also like to thank Assistant Secretary Carson for 
his continued commitment to this issue and his unyielding 
support of USAID.
    Today I would like to share three points. First, I will 
provide an update on USAID programs. Second, I would like to 
discuss how U.S. Government resources are carefully targeted to 
ensure they comply with policy and legal restrictions. And 
lastly, I would like to share how, in line with USAID reforms, 
we are strengthening capacity of local organizations.
    First, our program. In Zimbabwe, supporting the return of a 
stable, representative democracy is our number one priority. 
During the past decade, a country that was previously the bread 
basket of southern Africa has deteriorated into chronic food 
and security and abysmal health and nutrition conditions. It is 
clear that the backsliding we have seen in Zimbabwe is directly 
related to poor governance.
    For these reasons, Zimbabwe is a tragic, but notable 
example of the linkages between governance, food security, 
poverty, and health. Our program addresses these elements and 
makes these linkages.
    One of the most critical reform efforts that USAID supports 
is the parliamentary-led, constitution-making process. USAID 
has supported the Parliamentary Select Committee and civil 
society in their efforts to solicit public input and debate 
issues of national interest. This provides an important avenue 
for peaceful political participation, particularly among youth.
    As a result of USAID support, the parliamentary committees 
now regularly hold public hearings on key pieces of 
legislation, including those addressing human rights and 
electoral processes. In addition, parliamentary standing rules 
now allow the Prime Minister a question-and-answer period for 
the first time.
    Our work to support democracy in governance is a critical, 
standalone objective of our program, as well as the foundation 
for our work in other sectors. Under Administrator Shah, USAID 
as a whole is reemphasizing the importance of integrating 
democracy, human rights, and governance into the three 
Presidential initiatives being implemented worldwide.
    Through the President's Emergency Plan for AIDS Relief, 
USAID assistance supports 80,000 HIV-positive individuals with 
lifesaving antiretroviral therapy, representing about one-
quarter of all clients in the country, and counseling and 
testing for 350,000 individuals per year.
    We also provide education, social, and medical support for 
60,000 orphans and vulnerable children. Our maternal and health 
assistance programs not only strengthen routine immunization 
services, but will also introduce vaccines that prevent two 
major causes of child deaths, pneumonia and diarrhea.
    USAID works with small-holder farmers and small-scale 
traders and producers to increase agricultural production and 
marketing, enhance value-chain competitiveness, improve food 
security and nutrition, and increase rural incomes. USAID is 
also engaging the Government of Zimbabwe in important food 
security policy and strategy discussions.
    Zimbabwe has seen a decline in the need for humanitarian 
assistance, as the Assistant Secretary has said, over the past 
3 years, from 7 million people requiring emergency food 
assistance in 2009 to an estimated 1 million in 2012.
    USAID also supports activities that improve access to clean 
water, provide hygiene education, and mitigate the risk of 
waterborne diseases, such as cholera.
    It is important to acknowledge that while humanitarian 
needs have decreased rapidly, USAID may still need to provide 
humanitarian assistance to the most vulnerable until the 
Government of Zimbabwe can do so.
    The second point is that USAID, in consultation with other 
donors and our Embassy in Harare, remains diligent in ensuring 
that none of our assistance is diverted or misused. U.S. 
Government sanctions against designated individuals and 
institutions are carefully observed in the award of contracts 
and grants and the designation of beneficiaries of assistance. 
All USAID funding in Zimbabwe is obligated through unilateral 
agreements with individual contractors and grantees. None of 
the funding is channeled through the Government of Zimbabwe, 
either directly or indirectly as a subawardee. The agency's new 
requirement to conduct a security risk assessment prior to 
obligation also serves as a mission-level control to keep U.S. 
foreign assistance funding out of the hands of the government 
as a whole and sanctioned individuals in particular.
    While some activities, such as technical assistance to 
strengthen ministries, are for the benefit of the Government of 
Zimbabwe, such funding will continue to be channeled through 
NGOs and possibly contractors, provided that they are given 
required waivers, until the Government of Zimbabwe demonstrates 
adequate progress on key benchmarks and legal restrictions are 
lifted.
    All of our activities are done in close consultation with 
Congress, the State Department and Treasury Department, and the 
national security staff, and are consistent with the U.S. 
Government's overall strategy and policy for this period.
    The third and final point is that, in harmony with the 
letter and the spirit of restrictions on our assistance, we 
seek partnerships to strengthen local organizations that are 
providing key services and support to the local population. We 
are committed to building democratic African institutions, so 
that Africans can decide their own future.
    In this vein, we identify and work with organizations that 
can contribute technically to USAID program implementation and 
strengthen the sustainability of our efforts. But we also 
provide, in addition to this technical program assistance, we 
provide to these organizations training in business skills, 
strategy formulation, project implementation, and advocacy.
    Currently, Zimbabwe poses an extremely difficult operating 
environment for civil society organizations that are trying to 
improve health, livelihoods, freedom, and human rights for 
their fellow Zimbabweans. They face harassments and threats 
from the very government that should be their ally.
    U.S. support will continue to be flexible and responsive, 
emphasizing Zimbabwean efforts to establish participatory 
processes and capacity development of reform-minded and reform-
oriented institutions, both at the national and local levels. 
This approach sets the foundation for Zimbabwe, when it 
eventually achieves a truly representative system, to be able 
to reclaim its previous successes.
    Change must come from within the country, and it will not 
happen overnight. At the same time, U.S. support has been able 
to make targeted gains toward improving health, economic 
sustainability, and democratic systems in Zimbabwe, while 
ensuring those subject to sanctions do not benefit from our 
assistance.
    Thank you for the opportunity to speak with you today. I 
welcome your questions and look forward to continuing our 
discussion. Thank you.
    [The prepared statement of Ms. Cromer follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Fortenberry [presiding]. Thank you, Ms. Cromer, for 
your testimony, and we appreciate your willingness to be here.
    I am quickly getting caught up. I am sorry I missed the 
first part of the hearing, but we will turn now to questions.
    Ambassador Carson, thank you as well for your testimony. I 
will start with you.
    The United States was the first country to extend 
diplomatic relations to Zimbabwe. You were once the Ambassador 
there. Could you go a little bit more into the history of why 
the relationship has been so contentious for so long, even 
predating our recent appropriate criticism of human rights and 
the political process or the breakdown of political process 
there?
    Ambassador Carson. Thank you very, very much for that 
question.
    The relationship with Zimbabwe has not always been 
contentious. It has had its ups and its downs. I would say that 
in early 1980, as reflected by the fact that the United States 
was the first country to recognize Zimbabwe, that in the early 
years of that relationship we got along reasonably well with a 
new Zimbabwean Government, a Zimbabwean Government that 
benefitted from our diplomatic efforts along with British 
diplomatic efforts to lead to that country's independence.
    The United States Congress, in the late 1970s, played a 
critical role in maintaining sanctions on the Smith regime. I 
believe the new Zimbabwean Government appreciated that greatly.
    Relations started to deteriorate somewhat in the mid-1980s 
because of the violence that was perpetrated by ZANU against 
its main rival, ZAPU, in which hundreds, tens of hundreds of 
people were killed in Matabeleland. We protested those human 
rights records and encouraged reconciliation. That 
reconciliation did, in fact, come and it resulted in the merger 
of ZANU and ZAPU into what we now have as ZANU-PF.
    Our relationship, fast-forward, started to deteriorate 
quite rapidly in the late 1990s, largely as a result of the 
government's allowing of massive land invasions and undermining 
the legitimacy of land titles and human rights in that country. 
We also were alarmed at the increasing rise of corruption in 
the government and, also, the harassment of political 
opposition movements that were opposed to ZANU-PF.
    It has been an episodic up and down, but it has not always 
been a bad relationship. As I said, in 1980, if we had gone 
back and looked in time, half of the Cabinet that came in in 
1980 was U.S.-educated, educated as a result of scholarships 
given by the U.S. Government to many of those ministers.
    Let me say that one of the things that Mr. Mugabe 
constantly raises and criticizes the United States about is the 
fact that he believes, I think quite wrongly, that the United 
States promised to provide a massive amount of money to his 
government in order to help buy White Zimbabwean-owned farms 
and transfer them to Black Zimbabweans. The historical record 
on that has been examined many times. In fact, there was no 
commitment of the type that he suggests was made.
    I can go into some degree of detail because we have over 
time said to the Zimbabweans we were willing to help them 
engage in transparent, legitimate, and meaningful land reform, 
but it had to be transparent; it had to be based on a willing 
seller/a willing buyer basis; that government officials could 
not themselves be a part of the process, and that the 
transparency of this had to be done in a way that all were able 
to participate, knowing that there was no preference for those 
in one party or for part of the leadership.
    I think that is a quick summation, but it has been an 
episodic relationship.
    Mr. Fortenberry. Well, thank you for that and, also, for 
reminding us of the difficulty in terms of the undermining of 
the rule of law and legitimate land title issues that clearly 
are part of this episodic problem, as you rightly point out. 
Thank you.
    Ms. Cromer, let me turn to you and ask you a related 
question in this sense: In Zambia we saw an excellent example 
of fair and free elections and a peaceful transition from 
power, as you point out, and an effort that was led and 
determined by the Zambian people.
    Given the proximity and the neighborhood, explain why 
similar dynamics cannot seem to arise in Zimbabwe?
    Ms. Cromer. Thank you for that question.
    It is difficult for free and fair elections to arise in a 
country where the majority of the population aren't allowed to 
voice opinion and participate in a democratic process. We are 
working very diligently with the Parliament and certain parts 
of the unity government to support reform-minded individuals 
and processes to allow the citizens of Zimbabwe to have such a 
voice, particularly the youth, to give them an opportunity for 
peaceful engagement and meaningful engagement.
    The mechanics of an election are important. That process, 
that democratic process is important, but we also believe that 
the daily opportunities of individuals to share in the decision 
making that goes on in their country is also a critical part of 
democracy. So, it is not a particular election that is 
important, but it is the entire democratic process.
    Mr. Fortenberry. Well, I would like to point out democracy 
cannot bring about the values upon which it rests. So, is this 
repression, fear, but also a structural problem in terms of 
civil society that does not empower the organization, the 
advancement of people, the willingness of people to come 
forward and promote this type of civil society structure? Is it 
all of the above?
    Ms. Cromer. You have a courageous civil society in 
Zimbabwe. There are civil society organizations, like the one I 
think you will hear from in the next panel, that are making 
courageous attempts to give voice to the aspirations of the 
people of Zimbabwe, and to provide basic services to those 
people. But they are constantly harassed and their efforts are 
diminished.
    So, under USAID's reform efforts, we are putting a great 
deal of emphasis on building the capacity of local 
organizations to not only deliver technically, but to also 
serve as advocates for reform and change and to work more 
effectively. But, again, these organizations come under 
enormous pressure, and we appreciate their courageousness and 
their willingness to step forward.
    Mr. Fortenberry. Thank you.
    With that, I will turn to our ranking member, Mr. Payne of 
New Jersey.
    Mr. Payne. Thank you very much, Mr. Chairman.
    Let me ask, Secretary Carson, what in your assessment of 
Zimbabwe's coalition, what is your assessment of the coalition 
government, and how do you see the influence or lack of 
authority from Prime Minister Tsvangirai? Is there any kind of 
parity in the government in your opinion?
    Ambassador Carson. The coalition government has worked only 
marginally well, marginally well. It has many more shortcomings 
than it does have positive assets and benefits.
    The most positive thing that can be said about the 
coalition is that it has brought all three parties together. 
They are working as a team, sometimes not very efficiently or 
well, but it has brought them together to enter into 
discussions and to debate and discuss public business.
    But to suggest that it has gone smoothly would be a great 
mistake. Over the last 3 years, there have been numerous 
occasions when Prime Minister Morgan Tsvangirai has publicly 
stated that the Global Political Agreement has not been honored 
by President Mugabe, that President Mugabe has not consulted 
him on Cabinet appointments, on the selection of district 
administrators, on the appointment of Zimbabwean ambassadors 
abroad. And he has also not consulted him on policies in which 
the Prime Minister should be directly involved.
    There have been numerous occasions in which the Prime 
Minister has said that he was on the verge of leaving the 
coalition because of the failure to consult and to make 
progress on elements related to the Comprehensive Peace 
Agreement.
    There have been continued reports of harassment of MDC/
Tsvangirai political officials by ZANU-PF security personnel, 
both the police and the military. MDC has had great trouble 
organizing itself and protecting its constituents.
    Where we have seen some benefit is in the leadership of the 
Finance Minister, Mr. Tendai Biti. There is absolutely no 
question that he has brought a sense of management and fiscal 
responsibility and organization to the Ministry of Finance that 
was not previously there. There is a great deal of 
accountability, and he seeks to ensure that budgets are 
established in a transparent way, that funds coming into the 
treasury are distributed according to the manner in which 
Parliament has determined they should be, and that these funds 
get out to government ministries and officials.
    So, Tendai Biti has been successful. He has had 
difficulties working with the bank Governor, who remains very 
close and loyal to Mr. Mugabe. But he has done, given the 
constraints, an excellent job.
    Several of the other ministers who are a part of the MDC 
have also acquitted themselves extraordinarily well. But they 
have done this in very difficult situations, as I said, under 
political harassment in the field. You, yourself, mentioned in 
your opening remarks about a demonstration that occurred just 
in front of Harvest House, which wasn't directed initially at 
the MDC. But there are these concerns that continue to linger.
    It has been a difficult and sometimes strained marriage 
that has been held together by the marriage counseling provided 
by South Africa and SADC.
    Mr. Payne. Just a quick point on that. As we remember, 
former President Mbeki was sort of non-decisive as it related 
to Zimbabwe. It seems like President Jacob Zuma has taken a 
stronger stand. Do you see a real difference in the new 
approach from President Zuma, and do you think this will push 
Mr. Mugabe to really consider reforms?
    Ambassador Carson. I think that South Africa's stewardship 
of the process of reconciliation or promoting reconciliation in 
Zimbabwe has been strengthened during the period in which 
President Zuma has been the head of state in South Africa. I 
think there have been two very good, recent SADC conferences in 
which SADC, under the leadership of South Africa, has placed 
some clear requirements for progress on Zimbabwe. We hope that 
the Zimbabwean Government will heed those requirements and 
criteria.
    First and foremost, clearly, has been the requirement that 
the new constitution be completed and that there be a 
referendum on that constitution prior to the holding of any new 
national elections. Mr. Mugabe would clearly like to have 
elections early, but it is clear from what we are hearing from 
SADC and from the South Africans that they want the ZANU-PF 
leadership to follow the roadmap that SADC has laid out, which 
is in line with a full implementation of the Global Political 
Agreement, a new constitution after consultations, a 
referendum, and then national elections. There are other things 
that are also required that have to be done as a part of the 
roadmap.
    Mr. Payne. My final question, as my time has about expired. 
Deputy Administrator Cromer, in your testimony you discussed 
the USAID's democracy-in-governance efforts, including your 
role in facilitating civil society input in the formation of 
the new constitution and engaging reform-minded elements within 
the unity government. It is my understanding that USAID's 
democracy-and-governance program for Zimbabwe is currently 
under review.
    Would you be kind enough to elaborate on the program, 
particularly any challenges you have faced in dealing with the 
unity government and what assistance, if any, is the U.S. 
providing to ensure Zimbabwe's next election is fair and free, 
and maybe when it might be held in 2012, what portion of it, if 
you would? And the constitution review, are we involved in 
helping them on that constitutional review?
    Ms. Cromer. Thank you.
    Given the significant delay in finalizing a new 
constitution, and the need for a referendum, as the Assistant 
Secretary has said, in advance of the next elections, like the 
Assistant Secretary, we don't believe that the groundwork has 
been laid for elections in the near-term. We think late 2012 at 
the earliest, but a lot of work needs to be done.
    The overall goal of assistance in this area is to 
contribute to creating conditions for credible electoral 
processes in Zimbabwe, including the constitutional referendum, 
working on election administration, domestic observation, 
political party strengthening for Presidential, parliamentary, 
and local elections. It is a big order. Support to the 
Zimbabwean Electoral Commission aims to develop a transparent 
and credible process for electoral administration.
    In a country-specific and tailor-made way, responses to the 
knowledge and capacity gaps in the Electoral Commission system 
in Zimbabwe have to be analyzed and the capacity-building 
efforts have to be focused on the needs specific to the 
Electoral Commission in Zimbabwe. We anticipate that training 
support, voter registration, civic and voter awareness, 
political finance, and voter dispute resolution are all things 
that need to be addressed.
    Lastly, domestic observation needs to focus on greater 
transparency and accountability in the Zimbabwe electoral 
process, and strengthening the civil society's ability to serve 
as observers of the election process is going to be critical.
    So, all of this is what was seen in Zambia, I am sure, and 
what we don't see at this point in Zimbabwe, and we will need 
to work hard to achieve this.
    Mr. Fortenberry. Thank you.
    Mr. Turner from New York, did you have any questions?
    Mr. Turner. Thank you, Mr. Chairman, not at this time.
    Mr. Fortenberry. Let me ask a final quick question of you 
both. According to press reports, the international diamond 
regulators have agreed to allow Zimbabwe to trade up to $2 
billion in diamonds. Does this have the potential to underwrite 
the ruling elite and undermine legitimate electoral process?
    Ambassador Carson. Sir, let me, if I could, respond to 
that. Occurring right now in Kinshasa, the DRC, is one of the 
yearly intercessional meetings of the Kimberley Process. The 
Kimberley Process was established over a dozen years ago in 
order to prevent conflict minerals, and diamonds in particular, 
from getting into the marketplace, diamonds that were used by 
rebel groups to fund their criminal activities undermining 
governments and destroying the lives and human rights of 
citizens across the continent.
    The Kimberley Process has, in fact, been very effective in 
dealing with conflict diamonds in places like Liberia, Sierra 
Leone, Central African Republic, Angola, and others. I say this 
as a preface because the Kimberley Process has been under 
enormous stress over the last 2 years, 3 years, because of the 
discovery of diamonds in an area called Marange in Zimbabwe, 
and the use of government elements to go in and exploit these 
diamonds in a way in which the human rights of artisanal miners 
and others have been undermined and destroyed.
    The Kimberley Process and we have been pushing very hard to 
try to come up with a way to ensure that the diamonds from 
Marange would, in fact, be brought under some kind of 
supervision, that there would be a monitoring of the diamonds 
taken out of these conflict areas in Zimbabwe, that civil 
society would have an opportunity to go in and view for 
themselves whether there were illegal or criminal activities 
going on there.
    We have been working very hard inside of the Kimberley 
Process to encourage greater respect. This has resulted, in the 
last 2 days, an agreement has been reached, an agreement that 
was pushed forward by the European Union. It is an agreement 
that has been endorsed by the Kimberley Process countries.
    The agreement is far from perfect. The United States did 
not vote for it. We abstained because we thought the barriers 
were a little bit too low.
    But it does represent an opportunity again for the 
international community to go in and ensure that diamonds 
coming out of Marange are not the result of human rights 
violations, and that they are monitored, the sales of these 
diamonds are monitored in a transparent fashion.
    Revenues from these diamonds will, in fact, go into the 
hands of a variety of individuals, including the government. 
But it does, in fact, establish a level of procedure that will 
ensure that human rights violations are not occurring and that 
some of the egregious activities that were undertaken by the 
Zimbabwe military several years ago will stop, and if they do 
occur, will be monitored and reported on.
    So, it is a step forward. It is not a perfect step because 
this is not a problem that was originally anticipated when the 
Kimberley Process was established. It was established to 
monitor the diamonds being sold by rebel groups, not diamonds 
which were being handled by a government.
    Mr. Fortenberry. Well, you answered one side of the coin in 
regards to a potential process to stop the exploitation of 
vulnerable people, but the other side of the coin as to where 
this revenue is going to go leaves us a little bit uncertain as 
to the answer to my question, whether this could potentially 
undermine legitimate electoral reforms.
    I just give you a sense of this based upon the quote from 
the Mining Minister who said, ``We are going to shock the 
world. We are going to unleash our worthiness. Zimbabwe will no 
longer be begging for anything from anybody,'' which suggests 
that this is not necessarily an attempt to join a responsible 
community of nations in some sort of organized trade fashion.
    So, I just submit that to you. I respect what you said in 
terms of this process being partially effective in preventing 
the type of exploitation of vulnerable folks, but, again, where 
is the money going to go? That is, I think, a very open-ended 
question here.
    Ambassador Carson. If I could respond? The response is 
clearly this amount of money will be a shot of adrenaline, but 
it will not, in fact, be long-term sustenance. The Zimbabwe 
economy will take more than just Marange diamonds to recover 
from the low level in which it has been operating over the last 
decade and a half.
    Zimbabwe needs to rebuild its agriculture, reestablish its 
tourism, rebuild its mineral sector, and rebuild the financial 
basis on which it has been able to operate.
    Mr. Fortenberry. All excellent points.
    Ambassador Carson. It is a shot of adrenaline, but not very 
much----
    Mr. Fortenberry. But can we be assured that these funds 
will actually go toward that capacity-building? I think that is 
perhaps a question that could be further explored, maybe even 
in the next panel.
    But Mr. Payne?
    Mr. Payne. Right, and I agree. There already have been some 
complaints by Mr. Biti, the Finance Minister, that the funds 
are not getting where they should be. But we certainly should 
encourage them to go to improve the quality of life for the 
people in the country, and not to bolster the government to 
strengthen the military or some other nefarious kind of 
activities that would not be beneficial.
    I have a quick sort of similar question to Ambassador 
Carson. You mention in your testimony that the State Department 
is doing what you can within the confines of the targeted 
sanctions program to promote Zimbabwe's economic recovery and 
to highlight opportunities to invest for investments that will 
benefit U.S. and Zimbabwe businesses.
    Could you elaborate on that? What are we doing? And are we 
engaging small and medium-sized or minority businesses? Are we 
engaging Zimbabwe and the American diaspora community?
    And the other thing I wonder, how can U.S. businesses 
engage with Zimbabwean businesses while still complying with 
U.S. sanctions? Someone in my district said he was going to try 
to do a small business in some kind of stones, not diamonds or 
anything, but Zimbabwe means rock, actually. There is a certain 
kind of rock stone that is used in kitchens, or whatever, and 
he was interested in getting involved in that. So, I wonder, 
what is the stance that we have as it relates to small 
businesses or things of that nature?
    Ambassador Carson. Thank you, Mr. Payne.
    It is worth iterating again that we do not have 
comprehensive sanctions against Zimbabwe. We have very precise 
and targeted sanctions against those individuals in senior 
leadership positions who are most responsible for undermining 
the democracy of the country and the human rights of its 
citizens, 121 individuals and three dozen companies, companies 
that are owned by ZANU-PF, companies that are owned and run and 
operated by the military.
    There is no prohibition that would limit an American 
company from being able to go in and to effectively do business 
in Zimbabwe. If, for example, Coca-Cola or Pepsi-Cola or 
somebody like that has an operation there, they could continue 
to operate. If there were agricultural companies, Pioneer, 
Cargill, Monsanto, they can continue to operate there. They can 
sell seed and fertilizer. They can buy product. They can 
process product and sell it in-country.
    And so, it is not designed, these sanctions are not 
designed to hurt the Zimbabwe population, but to hurt those 
individuals in senior leadership positions in Zimbabwe who are 
most responsible for undermining the rule of law in that 
country. That is where we go.
    We have, through our USAID programs, been engaged in trying 
to help small-scale agriculture and agriculturalists in 
Zimbabwe, including establishing some new admittedly small 
programs since the MDC joined the government. We have given out 
small grants to farmers to help increase their agricultural 
production. We hope that some of this will be used not only for 
subsistence, but also surplus to be sold into the marketplace.
    So, there are programs and there are ways to work with 
small-scale operators through some agricultural programs and, 
also, through some micro finance and micro lending operations. 
And, yes, our Ambassador in Zimbabwe recently helped to bring a 
group of Zimbabwean businessmen here to try and promote 
business in Zimbabwe. None of that is against any law or 
against any sanction.
    I would be the first to say that, given the macroeconomic 
conditions in the country, given the way in which the 
government has talked about indigenization plans, the way in 
which the courts have operated inconsistently and unfairly in 
the protection of both civil liberties and corporate liberties, 
the companies will think more than once about going in there, 
but it is not against the law for them to think about it and to 
be able to exploit opportunities as they come up in the 
country.
    Mr. Payne. Thank you.
    Mr. Fortenberry. I thank the gentleman.
    I think that will conclude our panel. Thank you, Ms. Cromer 
and Ambassador Carson, for coming today and for your insightful 
testimony.
    Mr. Ambassador, I learned something about you a moment ago. 
I understand that much earlier in your career you were staff 
director for this very subcommittee. We are very happy to see 
that we helped launch you into such a successful career 
trajectory. So, thank you for your service.
    Ambassador Carson. Let me say that it is true; I can't run 
away from my history. I spent 4 years here. I was, in fact, a 
Foreign Service officer at the time when I was asked to come up 
here.
    Mr. Fortenberry. Well, you wear the scars well. [Laughter.]
    Ambassador Carson. Let me just say I learned a great deal 
from being up here. I hope that my Foreign Service career was 
well on a positive trajectory before I arrived. Maybe it got a 
little bit of a catalyst while I was here, but that is subject 
to debate as well.
    Mr. Fortenberry. Thank you both for coming today.
    We will move now to our next panel. We welcome you all 
today. Thank you so much for joining us.
    Let me first introduce Mr. Mark Schneider of the 
International Crisis Group. Mr. Schneider joined the 
International Crisis Group in the spring of 2001 as senior vice 
president and special advisor on Latin America. He directs the 
Washington Advocacy Office, conveying Crisis Group analyses and 
recommendations to the White House, the State Department, the 
Department of Defense, Congress, as well as the World Bank. He 
also serves as special advisor on Latin America and on HIV/AIDS 
and security.
    Before joining the International Crisis Group, he served as 
Director of the Peace Corps and as Deputy Assistant Secretary 
of State for Human Rights.
    Welcome, Mr. Schneider.
    I will introduce all of you, and then we will turn to you, 
Mr. Schneider, for your opening remarks.
    Mr. Paul Fagan is with the International Republican 
Institute. Welcome.
    Mr. Fagan began his career at the International Republican 
Institute in 1995. He currently serves as the regional director 
for Africa, where his duties include oversight of the program 
in Zimbabwe. He served as the first East Africa resident 
regional director based in Kenya and as IRI's resident country 
director for Zimbabwe. He served in this position through 
Zimbabwe's parliamentary elections in 2005. He later served as 
acting deputy director for Africa and has served on election 
observation missions in African, European, and Asian countries.
    Welcome.
    Mr. Dewa Mavhinga is with the Crisis in Zimbabwe Coalition. 
Mr. Mavhinga is a human rights lawyer and activist currently 
working as regional coordinator for the Crisis in Zimbabwe 
Coalition, based in South Africa. Mr. Mavhinga has previously 
worked with Human Rights Watch, in London, in the African 
Division as a researcher on Zimbabwe.
    He has conducted extensive research on the human rights 
situation in that country and has lobbied at the Southern 
African Development Community, the Africa Union, and the United 
Nations Human Rights Council.
    Welcome as well.
    Mr. Schneider, would you care to begin, please?

    STATEMENT OF MR. MARK SCHNEIDER, SENIOR VICE PRESIDENT, 
                   INTERNATIONAL CRISIS GROUP

    Mr. Schneider. Thank you very much, Mr. Chairman. I want to 
thank the chairman and the subcommittee, the ranking member, 
and the other members for the opportunity to testify today.
    I think it is extremely important, the timing of this 
hearing. As we heard earlier, only yesterday the Zimbabwe 
security forces tear-gassed and invaded the headquarters of the 
opposition MDC party in Harare.
    Crisis Group is an independent, non-governmental, non-
partisan organization that, through field-based analysis, 
policy recommendations, and advocacy, seeks to prevent 
conflict. We are active in some 62 countries around the world. 
In Africa, we have four subregion programs that focus on the 
Horn of Africa, Central Africa, West Africa, and Southern 
Africa.
    Mr. Chairman, Zimbabwe currently is in the midst of another 
national struggle. As we heard earlier, its first one was for 
independence. It is now in another struggle to move from what 
has been dictatorship to democracy.
    For 30 years, since its independence in 1980, Robert Mugabe 
has ruled uninterruptedly. His age and ill health now virtually 
guarantees new national leadership. It is that very prospect 
that has been the core of resistance to democratic change by 
his party, ZANU-PF, and by Zimbabwe security forces.
    To some degree, what we have seen since 2000 is the obvious 
exhaustion of that de facto one-party state and the rejection 
by the population of efforts to sustain it. As a result, he has 
remained in power essentially through repression, flawed 
elections, and, unfortunately, economic measures that, as you 
have heard, have sent Zimbabwe basically into the lower ranges 
of global human development. The UNDP's ranking for Zimbabwe 
now is in the 170-173 range of the countries of the world.
    Just as one example, even today with a slight increase last 
year in GDP, there is somewhere between 90 and 95 percent 
unemployment in the country. As you have heard, since the 
violent and tainted electoral process in 2008, only massive 
diplomatic intervention by SADC and the African Union prevented 
a major implosion in the country.
    And the Global Political Agreement that was signed then and 
that set up this coalition government was aimed at doing two 
things fundamentally: One was normalizing political processes, 
and the other was fostering the conditions for free and fair 
elections. Unfortunately, I would even go further than the 
earlier testimony. Most of the major GPA reforms have not been 
achieved. Particularly, the ZANU-PF forces have impeded or 
ignored its implementation. Commissions have been named, but 
not staffed. Laws have been passed, but not enforced.
    And the building blocks of credible elections are yet to be 
put in place. I think that you have heard there has been an 
effort made to push through early elections, even in the 
absence of those building blocks, adequate voting rolls, a 
balance in the secretariat of the Zimbabwe Electoral 
Commission. The same people who ran the 2008 election continue 
to staff that body, and that has been a major concern.
    SADC and the African Union were co-guarantors of the GPA 
and given the responsibility to monitor it. I will say that 
only this year have we seen the first really strong critique 
from SADC that came about in April of this year. There were 
promised deployments that have still not materialized in terms 
of support for a monitoring process.
    I think that the sine qua non for progress right now is the 
approval of a roadmap to elections. It was tentatively drafted 
in April with the support of SADC. In July, the negotiators 
said, ``We agree to this.'' There are still gaps, but the party 
leaders have not yet approved it. Until there is movement to 
put that roadmap into effect, we are not going to get to 
credible elections. The result could well be another violent 
experience that occurred in 2008.
    Just quickly, there are three key issues: One is an end to 
state-sponsored violence; the second is achieving some degree 
of security sector reform; and a third is, as I said, altering 
the control by ZANU-PF of the Electoral Commission secretariat. 
That is the only way that we are going to see clear movement, 
get constitutional reform, the referendum, and then movement 
toward general elections.
    In addition to what you have heard today, the state-
sponsored violence has also included not simply the attack 
yesterday and this tear-gassing, but several weeks ago, again, 
the invasion by a ZANU-PF militia of the head party 
headquarters. The rallies by MDC have been broken up by 
physical force. The members of the MDC who are members of the 
Cabinet, a half a dozen of them have been arrested since last 
April, then released, all on bogus charges. Just to give you 
some sense, about a third of the MDC members of Parliament who 
have come into the Parliament since 2008 have been arrested at 
least once by the security forces.
    Also, it wasn't mentioned, but I think it is important to 
note that the former defense head, Solomon Mujuru, died in 
August at his farm under very questionable circumstances. 
Within the governing party, he had been a source of moderation, 
and his wife, as you know, is Vice President. They had been 
seen as elements that were looking for a compromise and for 
moving forward on GPA. So, it is of great concern that this has 
occurred.
    Second, I think that on security sector reform, there are 
key things that were in the roadmap that seemingly were agreed 
to that have not moved forward. As I said as well, the Zimbabwe 
Election Commission secretariat needs to be more balanced and 
more professionalized.
    I think the key outside actors are SADC and the African 
Union, but the United States does have a critical role to play. 
I will simply note here that the U.S. engagement needs to be 
done in lockstep, if you will, with SADC and with the efforts 
of the facilitator, President Jacob Zuma. That is the only way 
that we are going to be able to support a process in which the 
GPA and the roadmap will move forward.
    I think that it is clear from the earlier testimony that we 
see President Zuma as taking a much more active role now. The 
U.S. can play a significant role, but needs to support that 
process. And we can go into the details of my testimony, which 
I hope would be put into the record, about some of the elements 
in terms of support for the electoral process, the electoral 
observation, the effort to carry out some sort of countrywide 
dissemination of the constitutional reforms before the 
referendum. So, support for that process would be very 
important.
    Similarly, on the media reform, the U.S. can support the 
efforts by SADC to push that forward. These would be some of 
the areas where we believe it would be possible to strengthen 
the process of moving this situation from where it is today. If 
it continues on the current path, it is more likely to implode 
than to progress.
    [The prepared statement of Mr. Schneider follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Fortenberry. Thank you for your testimony, Mr. 
Schneider.
    If there is no objection, all testimonies will be included 
in the record today. Hearing none.
    Mr. Fagan, we will recognize you now.
    I am going to try to expedite the hearing a little bit and 
put on our time clock here, so that we have ample time to 
unpack all the issues. So, if you could stay within the 5-
minute limit, that would be helpful.

  STATEMENT OF MR. PAUL FAGAN, REGIONAL DIRECTOR FOR AFRICA, 
               INTERNATIONAL REPUBLICAN INSTITUTE

    Mr. Fagan. Thank you. Thank you, Mr. Chairman, Ranking 
Member Payne, and members of the subcommittee. Thank you for 
the opportunity to testify today.
    This is a summary of my statement.
    This testimony marks the third time since 2005 that a 
representative from IRI has come before this committee to talk 
about Zimbabwe. Looking back on the 6 years, what is striking 
is that, while much has changed, Zimbabwe's democratic growth 
and U.S. policy toward it have remained rather static.
    This is perhaps due to the fact that Zimbabwe poses a 
difficult, but unique policy challenge to the United States. 
The very nature of Zimbabwe's coalition government often 
shields Mugabe and ZANU-PF from action by the opposition. 
Further, overt condemnation of Mugabe, his party, and his 
government for things other than the most egregious of crimes 
has a potential to backfire. Mugabe has been successful at 
blaming Zimbabwe's ills on external intervention. Finally, the 
coalition government has managed to bring just enough stability 
to Zimbabwe to enable it to be overshadowed by other 
emergencies on the African continent.
    It is time, however, to start paying more attention to 
Zimbabwe. The imminent constitutional referendum, the national 
elections, have the potential to graduate the crisis from a 
steady, but manageable simmer to boiling over.
    The merits of Zimbabwe's power-sharing agreement have been 
debated from the start. On the one hand, the 
institutionalization of the MDC into government has resulted in 
some tangible progress for the country, particularly with 
regard to the economy. On the other hand, power-sharing 
agreements have become an oft-considered diplomatic tool to put 
an end to rampant political violence in Africa.
    While ending violence is always a worthy and immediate 
goal, IRI and other democracy organizations rightly become 
concerned when the will of the people is ignored. Further, the 
government of national unity can generally be characterized as 
an unholy marriage of contradicting interests, with the 
constitutional reform process and the roadmap to national 
elections currently proving to be the greatest stumbling blocks 
to the Global Peace Agreement implementation.
    The constitutional reform process, while important, has 
been marred by difficulties from the start. Logistical 
difficulties and high levels of violence tarnish this 
opportunity for citizens to engage in the democratic process, 
leading Prime Minister Tsvangirai to publicly refer to the 
constitutional reform process as ``a circus.'' A draft of the 
revised constitution is now optimistically expected in 
December, pushing the referendum, originally scheduled for mid-
2011, to sometime early next year.
    On numerous occasions, the government of national unity 
partners have looked to quick elections as only an escape from 
the difficult and often ineffective arrangement that binds 
them. This July, a SADC facilitation team was able to achieve 
consensus from all three party partners that elections should 
be held in late 2012, but President Mugabe made a public 
statement shortly thereafter declaring his intent to 
unilaterally call elections for next March.
    Assuming that the GPA partners can come to a final 
agreement on an election date, numerous conditions must also be 
met for free and fair elections to occur, which have been 
mentioned here previously, including the institution of an 
impartial election commission through creation of an accurate 
voters' roll, the opening of space for independent media, 
meaningful electoral reform, and, most importantly, an end to 
tactics of violence and intimidation.
    As the U.S. Government reviews its policy for engagement 
with Zimbabwe, I would encourage the following recommendations 
to be taken into consideration: One, the U.S. should develop a 
more robust policy toward Zimbabwe that extends beyond targeted 
sanctions and involves a higher level of direct engagement with 
the ongoing crisis. Further, the U.S. must articulate that the 
only acceptable outcome for Zimbabwe is one reached through a 
peaceful, free, and fair democratic process.
    Two, SADC should be the leading force in resolving the 
Zimbabwe crisis. Southern African leaders have historically 
taken a soft position toward Mugabe, but this stance has 
steadily eroded.
    If there is something positive to be taken from the 
Zimbabwe crisis, it is the extent to which SADC has come to 
take seriously its role as the guarantor of the GPA, and any 
action taken by the U.S. should be done in a manner that 
complements and supports SADC efforts.
    Third, it has been long rumored that Mugabe is suffering 
from poor health and that ZANU-PF is plagued by internal 
conflict. A post-Mugabe era could spur the ascendency of 
moderate or hard-line factions of ZANU-PF to party leadership 
positions and government positions. The U.S. should prepare 
contingency plans for both scenarios, as either would 
drastically alter the status quo with significant ramifications 
for U.S. engagement.
    Finally, the United States has at its disposal a number of 
key State Department officials who will prove great assets in 
the design of a cohesive, comprehensive policy, including 
Secretary Carson; of course, the U.S. Ambassador to Zimbabwe, 
Charles Ray; the U.S. Ambassador to Botswana, Michelle Gavin, 
who is also the United States representative to SADC; Under 
Secretary Maria Otero, and Assistant Secretary for Democracy, 
Human Rights, and Labor, Michael Posner. To the greatest extent 
possible, these and other U.S. key government partners should 
play a more proactive and integrative role in the design and 
implementation of U.S. policy toward Zimbabwe.
    Thank you, Mr. Chairman. This has been a pleasure.
    [The prepared statement of Mr. Fagan follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Fortenberry. Thank you, Mr. Fagan.
    Mr. Mavhinga?

STATEMENT OF MR. DEWA MAVHINGA, REGIONAL COORDINATOR, CRISIS IN 
                       ZIMBABWE COALITION

    Mr. Mavhinga. Thank you, Mr. Chairman and members of the 
committee. It is a singular honor for me to address this 
distinguished committee to give testimony on the U.S. policy 
toward Zimbabwe. I wish to thank you profoundly for taking time 
to reflect on the initiatives to support the people of 
Zimbabwe.
    My work as regional coordinator for Crisis in Zimbabwe 
Coalition, a grouping of civil society organizations that are 
working to help create a genuinely free and democratic 
Zimbabwe, keeps me in touch with the ongoing efforts to resolve 
the governance crisis in my country.
    Since the signing of the Global Political Agreement, the 
GPA, in September 2008, which created the inclusive government 
between the former ruling party ZANU-PF and the two factions of 
the MDC, some progress has been made to reverse the country's 
catastrophic economic decline and restore normalcy to people's 
lives. But several critical steps remain to be taken by both 
Zimbabwe and the members of the international community, 
including the U.S. Government, to guarantee sustainable peace 
and development.
    Mr. Chairman, largely due to President Robert Mugabe and 
ZANU-PF party's unwillingness to institute fundamental reforms, 
Zimbabwe has failed to restore the rule of law, to ensure that 
the next elections are free and fair, and to provide justice 
for victims of abuses or to bring the perpetrators of those 
abuses, particularly the horrific electoral violence of 2008, 
to account and to create a viable roadmap that will pave the 
way toward a genuine transition to a free, democratic, and open 
society.
    But for the following reasons, among others, Zimbabwe is 
not ready to hold democratic elections: Key state institutions, 
particularly those responsible for the administration of 
elections, remain unreformed and partisan toward ZANU-PF. 
Although the inclusive government has appointed a new Zimbabwe 
Electoral Commission, its secretariat has not been reviewed to 
ensure independence and non-partisanship in the discharge of 
its mandate.
    Zimbabwe's voters' roll cannot be used for elections, as it 
remains outdated and largely inaccurate. A survey released 
earlier this year estimated that a third of the voters on the 
roll were dead.
    Senior leaders within the security sector continue to 
publicly, and unconstitutionally, proclaim partisanship toward 
ZANU-PF. For instance, on 27 May 2011, Brigadier General 
Douglas Nyikayaramba of the Zimbabwe National Army told a 
weekly paper that the military wants elections held in 2011, 
which will be won by ZANU-PF, adding that, ``Truly speaking, I 
am in ZANU-PF and ZANU-PF is in me and you cannot change 
that.''
    Uniformed members of the security forces have also been 
implicated in perpetrating violence against perceived ZANU-PF 
opponents and in directly campaigning for ZANU-PF. The security 
sector played a key role in preventing the MDC, which clearly 
won the 2008 elections, from taking power, and there is little 
likelihood of a genuine and peaceful transition without the 
transformation of the security sector.
    While the government has lifted restrictions on print 
media, it has maintained tight control over ZANU-PF-aligned and 
state-owned radio and television stations. There are no private 
radio or television stations operating in Zimbabwe.
    The constitutional reform exercise is yet to be finalized. 
Some progress has been made in the area of drafting a new 
constitution under the GPA, but the constitutional review 
process is over a year behind and is taking place under 
difficult circumstances of extreme polarization, conflict, 
intolerance, and inadequate funding. There is the expectation 
that, now with legal drafters in place, there should be a 
national referendum for the constitution by March 2012. We 
demand that there be a new constitution in place before 
Zimbabwe can be ready to hold fresh elections that are 
credible, free, and fair, and where violence and intimidation 
play no part.
    Our regional bloc, SADC, has made a significant policy 
shift on Zimbabwe. Driven largely by its mediator, South 
Africa, SADC has condemned violence and intimidation in its 
resolution in March 2011. SADC has also rejected ZANU-PF's push 
for elections in 2011 and has insisted on the full 
implementation of the GPA. SADC urged its Troika organ on 
defense, politics, and security to deploy representatives to 
participate in the monitoring of the implementation of the GPA 
and the election roadmap.
    The inclusive government has managed to restore a measure 
of stability to our economy by scrapping our local currency in 
favor of a multi-currency system driven by the U.S. dollar. Our 
agriculture and local industries are performing way below 
capacity, and for the ordinary Zimbabwean, life continues to be 
a huge struggle with unemployment. Well over 90 percent and at 
least 70 percent of our population lives on less than $1 per 
day.
    While there is economic growth that has been witnessed over 
the past few years, this economic gain is unsustainable if 
there is no solid political foundation. And the debate around 
the indigenization bill that seeks to take over 51 percent of 
shares from foreign-owned companies raises serious concerns and 
undermines possibilities for foreign direct investment.
    Most of the revenue from diamonds, which could play a 
pivotal role in boosting the state spending on key social 
sectors and supporting overall economic development, has 
largely bypassed the formal government structures controlled by 
Finance Minister Tendai Biti of the MDC. Lack of transparency 
and accountability for the vast diamond revenue raises serious 
risk that the money could be used to finance a violent 
election, if one is called prematurely in the absence of 
mechanisms to prevent state-sponsored violence.
    I wish to thank the U.S. Government for its humanitarian 
support to the people of Zimbabwe and support to civil society 
groups, and I wish to submit the following recommendations for 
your consideration: The U.S. Government should actively 
encourage and support the emerging SADC consensus on Zimbabwe 
relating to the need to establish a legitimate government 
through genuinely free and fair elections that are preceded by 
a new constitution and other necessary reforms.
    The U.S. Congress should avoid any legislative initiatives 
on Zimbabwe at the moment, including repealing ZDERA, the 
Zimbabwe Democracy and Economic Recovery Act, or targeted 
sanctions, until after genuinely democratic elections have 
ushered in a legitimate government reflective of our people's 
wishes.
    The people of Zimbabwe have benefitted greatly from the 
support rendered by the American people to civil society groups 
working in the fields of democracy and governance. We 
understand that support is being cut. I would urge the U.S. 
Government not only to reverse those cuts that are threatening 
to undermine the work of critical organizations, but also to 
consider increasing support to democracy and governance work 
through USAID at this vital stage in our transition. The key 
areas of work include: Finalizing the constitution review 
process; instituting and promoting electoral reforms; 
protecting human rights defenders; promoting human rights 
education and advocacy, and long-term monitoring and 
observation of elections.
    The U.S. Government should support the United Nations' 
deployment of a human rights advisor based in Zimbabwe and 
long-term deployment of election observers in order to prevent 
state-sponsored violence and intimidation.
    Issues of transparency and accountability and the rule of 
law must be included in a prudent Kimberley Process mandate and 
must be used to assess the entire diamond production chain from 
the negotiation and signing of contracts to production, tax 
payment, and revenue management. The Kimberley Process mandate 
should be expanded to involve the monitoring and oversight of 
the investment and the disposition of revenues and from 
resource extraction.
    Thank you so much for this opportunity to address you. I 
welcome questions. Thank you.
    [The prepared statement of Mr. Mavhinga follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Fortenberry. Thank you, Mr. Mavhinga.
    Let me go to you first, and along with Mr. Fagan, because I 
want to reconcile statements that each of you made, if that is 
possible.
    Mr. Fagan, you alluded to the fact that regional leaders 
have taken a soft position on Mugabe. And yet, Mr. Mavhinga, 
you spoke of an emerging southern consensus for a legitimate 
electoral process. I would like to understand that dynamic.
    Mr. Mavhinga. Thank you, Mr. Chairman.
    Our understanding is that over the years, particularly if 
we look at the role of South Africa from President Mbeki's era 
where there was focus on building consensus among the political 
parties in Zimbabwe, and certainly within SADC, to the current 
arrangement for Zimbabwe, President Zuma is actively pushing 
for Zimbabwe to comply with electoral demands. It is due to the 
work of SADC and other additional players that ZANU-PF's push 
for elections this year was defeated. So, for us, it is 
significant that SADC is now making the right kind of noises to 
stop elections in Zimbabwe and to insist on benchmarks before 
elections can be held, which include a new constitution.
    Mr. Fortenberry. Do you care to comment on this, Mr. Fagan?
    Mr. Fagan. Sure. I think I agree. I think in the past what 
we saw, especially with President Mbeki, was this soft 
diplomacy that was characterized throughout his presidency, and 
it didn't have much impact on the crisis in Zimbabwe. Now we 
see, I would say, a much more dramatic change in what 
President----
    Mr. Fortenberry. So, these aren't irreconcilable positions? 
It is just a changing dynamic on a timeline?
    Mr. Fagan. I believe so, yes.
    Mr. Fortenberry. Okay. Let me ask all of you a hard 
question because it is a question that the Representatives here 
have to constantly answer, and it is an important question that 
many Americans ask. Why should we be involved here? Now I will 
give a partial answer to it, but I would like to also hear 
yours.
    It is, first of all, very difficult for Americans to sit 
idly by while other people are being repressed or even killed 
or they are rendered hopeless because of their political 
situation. We have a great deal of heart in this country and a 
great deal of generosity for the cries of humanity. Second is 
we also like to benefit from mutual exchange, whether that is 
cultural or trade. And third is it is for our own national 
security interest. Those combinations of converging factors 
generally create the dynamic in which we have an active foreign 
policy.
    But I think it is important for you all to answer that 
question in the context of this specific country, where, using 
the Ambassador's language, our relationship has been so 
episodic with its ups and downs.
    Mr. Schneider, do you want to try that?
    Mr. Schneider. I will be happy to, but I will say, Mr. 
Chairman, that you gave a fairly good framework there for the 
response. But I think that it is not simply Zimbabwe. It is 
southern Africa, and that what happens in Zimbabwe, whether 
they succeed in moving toward political stability, a democratic 
process, and restoring what was a very dynamic economy, will 
affect the future of the entire region. There you are talking 
about a region that really does have not just significant 
economic but political security issues.
    To be frank, over the course of several decades, it is 
clear the United States is simply unable, nor should it, to 
remain unaffected when it sees an entire region, essentially, 
under threat, vulnerable, and possibly vulnerable to 
involvement by criminal or other organizations that do pose 
threats to the region as a whole and to this country.
    But I think the fundamental reason is the one you said 
earlier. If we have an opportunity to assist countries in 
moving in the right direction, it is important to do so. And, 
clearly, we do in this case.
    Second, the opportunity for Zimbabwe and southern Africa to 
increase their prosperity is very clear. If this moves in the 
right direction, Zimbabwe should be able to move back on a 
steadily-progressive slope to restore its economy. Remember, 
its economy declined 50 percent. GDP in Zimbabwe declined 50 
percent since 1998.
    And so, what you want to do is to see what you can do to 
help move that in the right direction. As you said, there is a 
security issue, and it is not just focused on Zimbabwe; it is 
focused on Southern Africa as a whole.
    Mr. Fortenberry. Thank you.
    Mr. Fagan?
    Mr. Fagan. Sir, I think that is a very difficult question 
to answer. I have an emotional attachment to Zimbabwe, so I 
might have a different response personally than I do maybe, you 
know, if you are coming from the American public side.
    I would probably just point to the fact that Zimbabwe is 
not maybe as strategically as important to American security 
interest as maybe Nigeria, Angola, because of oil issues and 
other natural resources. It might not be as important as 
Somalia with the issue of terrorism and Al-Shabaab, and how it 
really does pose a security risk to the United States.
    But I would liken it to the situation of Rwanda of 1994. 
Did the United States have as much of a security interest in 
Rwanda? But what did we deal with in the aftermath? Almost 1 
million people died in a very short period of time.
    In Zimbabwe, we have a similar situation where a crisis has 
occurred over the past decade. I don't think you will see a 
country on the continent that has changed so dramatically 
without an actual conflict. There hasn't been war. There has 
been obviously constant violence and intimidation on behalf of 
ZANU-PF.
    But, as the United States, I believe we are a leader in the 
area of promoting democracy on these issues, and we can't stand 
idly by just because Zimbabwe poses less of a security interest 
than, say, Angola, Nigeria, Somalia, and Kenya. But I would 
agree with Mr. Schneider it is a regional issue. If you 
continue to let Zimbabwe deteriorate, it has had a major 
implication on the economy of South Africa, if you look at 
their own unemployment numbers. There has been a dramatic 
backlash against Zimbabweans and other nationalities in South 
Africa. It poses a huge economic problem for Botswana and 
Mozambique, Zambia. So, economically, it poses----
    Mr. Fortenberry. Well, this is a tough situation because, 
clearly, it is coming out of a difficult post-colonial period 
in which things clearly had to change and put itself on a 
trajectory to potentially be a strong country. And yet, these 
self-inflicted wounds by the political leadership and the 
irrationality, it is simply hard to understand, basically 
creating implosion internally simply to hold onto power, or for 
whatever is the irrational motive that is going on there. It is 
very hard to understand.
    But I appreciate your insight, your answer.
    Mr. Mavhinga, do you live in Zimbabwe?
    Mr. Mavhinga. Yes, Mr. Chairman, but I work out of South 
Africa.
    Mr. Fortenberry. Yes.
    Mr. Mavhinga. Only last week I was in----
    Mr. Fortenberry. So, what are conditions like for you? Are 
you free to speak in this way at home as you are to us? And 
thank you for your courage in doing so.
    Mr. Mavhinga. Thank you, Mr. Chairman.
    Conditions are very difficult. We are living under serious 
difficulties economically. But perhaps to answer your first 
question, we believe in terms of the defense of values of human 
rights, good democracy values, that there isn't enough for us 
to appeal to the U.S. Government to support the promotion of 
strong democratic institutions.
    Mr. Fortenberry. I find it very interesting, and I thank 
you for saying that. Again, when we are answering the hard 
question before the American people as to why we should put 
resources into any particular area, based upon the criteria 
which I laid out, the humanitarian cause, the opportunity for 
benefits of mutual exchange, or national security concerns, I 
am constantly amazed, and frankly refreshed, by the fact that 
so many other people who are struggling for the types of 
stability and liberties that we enjoy here, even though the 
United States' reputation seems to be deteriorated 
internationally, yet there is a constant turning to us because 
of the fundamentals that are in place here and the ideals that 
we invest in, both philosophically and culturally; namely, that 
each person has inherent dignity and, therefore, rights. And 
that becomes a model for the proper use of authority in our 
country.
    So, you are asking the hard question, ``Please continue to 
support us,'' but I think in doing so it compliments who we 
are. I don't mean to project on you what you are thinking, but 
I assume shaking your head means yes.
    Yes, thank you very much.
    Mr. Payne?
    Mr. Payne. Thank you very much, and thank you for coming 
all the way here to our hearing. We appreciate you, Mr. 
Mavhinga, for the work that you do and the struggle that you 
continue.
    Let me just maybe ask, and any of the panelists can 
certainly answer, do you think that the SADC troika now is 
really serious, and do you think that they will make a real 
difference? Anyone can answer.
    Mr. Schneider. I think the honest answer is that we hope 
so. In recent discussions, as I said, since March, they have 
issued the first public critique of the failure of the 
political party leaders to move forward.
    Second, at the last meeting of SADC, they took this draft 
roadmap that had been negotiated supposedly in July and they 
went through it. It is our hope that they will, in fact, do 
some things like send staff to support the joint monitoring 
effort, send staff from SADC into Zimbabwe to help with the 
electoral machinery, and send staff in to set up very early, 6 
months at least before the election, a nationwide observation 
process to support the national one. But it is crucial for SADC 
to be on the ground throughout Zimbabwe if there is to be any 
hope for this process to work successfully.
    Mr. Mavhinga. Thank you for that. There is hope to believe 
that SADC is now much more focused and is clear about the 
challenges in Zimbabwe which relate to the central question of 
legitimacy of the state in that they have insisted on the need 
to have elections that meet SADC minimum conditions governing 
democratic elections. So, SADC is onsite.
    What we hope will happen is that the international 
community, including the U.S. Government, would then rally 
around the emerging consensus within SADC to support that move 
and to support mechanisms for free and fair elections.
    Mr. Payne. Right. I think that we want to be helpful. 
However, in many instances if the U.S. gets involved in front 
of the movement, then the people in power then use that as 
saying the U.S. is trying to dominate, sort of like we did in 
Libya. We let the Europeans take the lead, and then we were in 
a supportive role. Hopefully, we will be able to do that with 
SADC taking the leadership, but we could have the technical 
assistance, be in the background, have the financial resources 
that are important.
    I wonder, Mr. Mavhinga, how am I doing with your name? 
Pretty good or fair? Okay, you know who I am talking about, 
right? Okay.
    What do you think the hard-liners, do you think that Mr. 
Mugabe is partly a prisoner, people wanting him to stay 
because, if he leaves, some of the bad fellows feel that they 
have no more protection? I have heard that argument.
    And about the women there, are the WOZA women, who have 
been so strong by approaching military people with flowers as 
they are beaten sometimes by the police and by the military 
authorities, is their movement still moving forward?
    Finally, how is the teachers' union holding up? Are they 
showing any resistance to Mr. Mugabe and his government?
    Mr. Mavhinga. Thank you for that. On the question of hard-
liners or whether President Mugabe is a prisoner, my considered 
view is that it is a complex situation, but President Mugabe is 
not certainly a prisoner, but perhaps he is prisoner of the 
circumstance of his own making, in the sense that he left ZANU-
PF too late to make arrangements for legal transition and 
leadership renewal within his party and in government. So that 
now creates complications for him in terms of controlling the 
various factions within his party.
    Certainly, there are those within his inner circle around 
him from the military who fear prosecution, but not only that, 
they also wish to defend their economic interests. President 
Mugabe has had in place an elaborate system of patronage that 
has benefitted those around him. So, they need to keep that 
arrangement going, and this is one of the reasons why they 
would want to fight off any succession or to insist that 
President Mugabe should continue to be their Presidential 
election candidate next year, when he turns 88.
    In terms of WOZA, the Women of Zimbabwe Arise, movement 
going forward, the challenge that we have in Zimbabwe is that 
of a de facto military state in terms of the control of balance 
on the population and the use of fear. So, there is a lot of 
repression coming from sections of the military and the police 
that blocks the movement by WOZA and other civic groups to 
rally and demand change. The same applies with the teachers' 
union and resistance from other quarters within the civic.
    We are trying very much, but, as we have heard in the last 
few days, even yesterday, the sections of the police loyal to 
President Mugabe continue to unleash violence on civilians, 
continue to unleash violence on civil society actors. So, these 
are the circumstances within which we are operating at the 
moment.
    Mr. Payne. I know that it is a tough question. I don't want 
to get you in the middle of politics, but I think when Prime 
Minister Morgan Tsvangirai started MDC, he started with the 
local elections. They won overwhelmingly. There was so much 
support for MDC. Somehow it seems that his focus became 
lessened and MDC split off a little bit, and he sort of seemed 
to have lost some of the luster.
    Do you feel that Mr. Tsvangirai, the Prime Minister, still 
has that zeal that began or is there another candidate that 
could possibly topple Mr. Mugabe?
    Mr. Mavhinga. I believe that Prime Minister Morgan 
Tsvangirai and the MDC have got truly a number of challenges 
over the last decade that they have been in existence and in 
political leadership of the opposition. Perhaps there were 
challenges around the decision to go into the inclusive 
government and the politics of appeasement, an approach that 
perhaps Prime Minister Tsvangirai took in the hope that to 
appease Mugabe would be to draw concessions out of him.
    This has not worked. The hard-liners and those around 
President Mugabe insisted that there would be no reforms. So, 
although we have the commitments on paper in terms of the 
Global Political Agreement, those reforms have not come into 
being. So, that has weakened the position of Prime Minister 
Tsvangirai and the MDC.
    But I am convinced that if we have a conducive environment, 
free and fair elections, and free political activity, then 
Prime Minister Tsvangirai will win the election overwhelmingly 
and will be able to deliver change. The challenge that is there 
is the continued control of the political and the electoral 
space by the military or the captains of the military who are 
loyal to President Mugabe and who are openly partisan to ZANU-
PF.
    Mr. Payne. Okay. My time has expired. But, as you may or 
may not know, I was able to get a meeting with President Mugabe 
about 2 years ago, being the first American to really get him 
to meet.
    Of course, I had been in Rhodesia way back, and I, of 
course, knew about his--I was there when the Rhodesia military 
was out hunting down ZANU and ZAPU Freedom Fighters. And so, he 
was aware of that, and I had been an admirer of him and Joshua 
Nkomo for many years during the day of the struggle, which he 
knew, and I did relate after he talked a long time about the 
persecution of the West and how they were mistreating them.
    But in the last several-hour meeting, I did get an 
opportunity to talk about the legacy they left, the education 
that they had done, the struggle that he had won, the fact that 
they led the way even for South Africa to defeat, when they 
defeated Ian Smith, that P.W. Botha's regime came down, and 
that they supported the arms struggle in South Africa; and that 
all of this is being lost on these years when you are having 
your officers beat women; you have judges who are giving 
decisions; you have people in your security force who torture. 
And how could you go from being such a revered leader to me as 
a young person, when he was in such leadership, to the position 
where he would allow these things to occur? And we really did 
have a frank discussion.
    But it is unfortunate that he has allowed himself to 
deteriorate to the point, and all that legacy of--as you know, 
the education of the Zimbabweans surpassed anyone in Africa, 
sub-Saharan Africa. As a matter of fact, it was part of a 
xenophobia problem in South Africa because of that situation of 
highly-educated Zimbabweans in South Africa, and their feeling 
they had taken their jobs, and so forth.
    So, I hope that one day he might once again just see the 
light and remember those days and come back to sanity.
    But thank you so much for coming.
    Thank you, Mr. Chairman.
    Mr. Fortenberry. Thank you, Mr. Payne.
    Mr. Turner of New York?
    Mr. Turner. Thank you, Mr. Chairman.
    I would like to think the United States is trying to help 
promote democracy, prosperity, the rule of law. To that end, 
next year there is a requested appropriation for over $100 
million in non-humanitarian aid.
    In your opinion--and I can ask this collectively--will this 
be helping prop up a basically criminal regime? Are we working 
against our own purposes? And if we are to do this, are there 
recommended checks we can do, so that we are not working 
against ourselves or against the people of Zimbabwe?
    Mr. Schneider. Thank you very much for the question. 
Actually, I think that when you look in detail at the kinds of 
programs, virtually none of the programs are going through the 
government. Most of the programs are going to non-governmental 
organizations and civil society organizations. There is a lot 
of focus on the human rights activist organizations. There is 
an effort to strengthen the capacity of micro-enterprise and 
small business.
    So, I think to some degree what they are trying to do 
through this program is to provide the building blocks 
ultimately of democracy. So that, if the political leadership 
moves in the direction that it should, that this kind of 
program can support civil society and activists participating 
in the next stage in Zimbabwe's development.
    Also, they are primed, as I understand it, to work to 
strengthen the technical capacities of the Election Commission 
once they make the right decisions.
    Mr. Turner. Thank you.
    Mr. Fagan. I would go a step further and say I am not sure 
exactly what that money is going to be used for. But in the 
past, I would say a lot of the groups have benefitted from the 
U.S. support to democratic activists, whether they----
    Mr. Schneider. Is your microphone on?
    Mr. Fagan. I think it is. Sorry, I was stepping away.
    So, I don't think the funding that has gone to and will go 
toward Zimbabwean activists helps support the regime. I think 
it helps support democratic activists, keeping the space open, 
whereby if the United States didn't support these activists and 
organizations, you would see a much smaller democracy movement. 
You would see a much less vibrant opposition.
    I think it remains critical that the United States remain 
engaged in this way. I think we have done a fairly decent job 
in the past, but it is a difficult situation. It is a difficult 
country to operate in. So, the support is necessary and very 
helpful. It doesn't go to support, I would say, ZANU-PF and the 
regime.
    Mr. Mavhinga. Thank you. I would want to agree, yes, that 
the support has likely benefitted civil society groupings, and 
that in terms of supporting reforms, under the framework of the 
Global Political Agreement, there is a fairly accountable and 
transparent mechanism that is controlled by the Finance 
Minister, Tendai Biti, who is from the MDC, who has done a lot 
to clean up the system. Much of the support bypasses the 
central bank of Zimbabwe, where the leadership has politically 
been aligned to ZANU-PF and to President Mugabe.
    So, there are mechanisms that are in place to ensure 
accountability and transparency, and to prevent the money 
falling into the wrong hands. So, the support is appreciated. 
We believe that during this transitional period we really need 
to increase support to civil society groups and to supporting 
reforms in the area of electoral reforms, constitutional 
reforms, and also to support initiatives and a multilateral 
fund through the United Nations' arrangements to support what 
is happening in Zimbabwe toward democratic transition.
    Mr. Turner. Thank you.
    Mr. Fortenberry. Yield back?
    Mr. Turner. I yield back.
    Mr. Fortenberry. The gentleman yields back.
    Mr. Schneider. One other point is that a significant 
portion of that, about $44 million, goes directly to non-
governmental maternal/child health programs and HIV/AIDS 
prevention. So, again, it is going directly in that case for 
humanitarian and basic human needs.
    Mr. Fortenberry. The first part of the testimony, before 
you were able to join us, Mr. Turner, covered some of that 
ground, but it is an appropriate question to re-ask.
    And thank you, gentlemen, for answering it.
    Well, that concludes our panel. I want to thank you all for 
joining us today and for your leadership on this important 
issue.
    With that, we will stand adjourned.
    [Whereupon, at 5:13 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                 <all>

</pre></body></html>
